FDIC Office of Inspector General Press Release: Miami Jury Convicts Four Defendants Of Conspiracy And Bank Fraud
Offenses Arising From $49.6 Million Mortgage Fraud Scheme
United States Department of Justice
United States Attorney
Southern District of Florida
FOR IMMEDIATE RELEASE
July 7, 2014
Miami Jury Convicts Four Defendants Of Conspiracy And Bank Fraud
Offenses Arising From $49.6 Million Mortgage Fraud Scheme
Wifredo A. Ferrer, United States Attorney for the Southern District of Florida, George L. Piro, Special
Agent in Charge, Federal Bureau of Investigation (FBI), Miami Field Office, and Jason T. Moran, Special
Agent in Charge, Federal Deposit Insurance Corporation (FDIC), Office of Inspector General, Atlanta
Regional Office, announce the convictions of Domenico "Dom" Rabuffo, 77 of Miami, Mae Rabuffo,
75, of Fort Lauderdale, and Williston Park, New York, Raymond E. Olivier, 52, of Land O' Lakes, and
Curtis Allen Davis, 51, of Tampa. The defendants were convicted after an eleven day-jury trial before
Chief United States District Judge Kevin Michael Moore. The jury found each defendant guilty of
conspiracy to commit bank fraud and wire fraud affecting a financial institution, in violation of Title 18,
United States Code, Section 1349. The jury also convicted Domenico Rabuffo, Olivier, and Davis of
multiple counts of bank fraud, in violation of Title 18, United States Code, Section 1344.
Domenico Rabuffo, Mae Rabuffo, Olivier, and Davis are scheduled to be sentenced by Chief Judge Moore
on September 25, 2014. The defendants face a maximum sentence of 30 years in prison for each count of
conviction.
According to the indictment and evidence at trial, from 2003 to 2008, the defendants conspired to
perpetrate a complex $49.6 million mortgage fraud scheme against various FDIC-insured lenders,
including Bank of America, Regions Bank, SunTrust Bank, and Wachovia Bank. Domenico Rabuffo and
Mae Rabuffo used shell companies to acquire ownership and control of a purported residential property
development known as Hampton Springs, located in Cashiers, North Carolina. Then, Domenico Rabuffo,
Olivier, and Davis recruited numerous straw borrowers to purchase building lots in the development.
Several of the straw borrowers testified at the trial. According to their testimony and other evidence,
Domenico Rabuffo paid the borrowers to obtain lot purchase loans and construction loans for building lots
in Hampton Springs. To obtain the loans, Domenico Rabuffo, Mae Rabuffo, Olivier, Davis, and other
conspirators, submitted fraudulent loan applications and related documents to the lenders and the lenders'
closing agents.
Among other things, the loan applications and settlement statements for the lot loans contained fraudulent
statements that the borrowers paid earnest money deposits and cash due at the closing. In fact, the
deposits and cash-to-close were paid by Domenico Rabuffo and Mae Rabuffo using proceeds from the
fraudulent scheme. Further, Domenico Rabuffo and Mae Rabuffo sent fraudulent correspondence to the
closing agents, including letters bearing the forged signatures of borrowers, to create the false impression
that the deposits and cash due at closing had been supplied by the borrowers from their own funds.
Olivier and Davis recruited straw borrowers for the fraud scheme and submitted fraudulent loan
applications to the lenders. Further, Olivier and Davis caused their private companies to be disclosed as
the employers of straw borrowers whose actual employment was inconsistent with the inflated income
stated on their loan applications. Then, when they were contacted by the lenders, Olivier and Davis
provided fraudulent verifications of employment for those borrowers.
Three other defendants, Diane M. Hayduk, 64, of Miami, Victor Miguel Vidal, 49, of Miami, and
Lazaro Jesus Perez, 44, of Miami Springs, pled guilty to the charged conspiracy. Hayduk assisted
Domenico Rabuffo and Mae Rabuffo with the misappropriation of loan proceeds and the transmission of
fraudulent correspondence to the lenders and the closing agents. Vidal served as a loan officer at SunTrust
Mortgage, where he sponsored fraudulent loan applications for lots in Hampton Springs, including
fraudulent applications for $33 million in construction loans. Perez furnished fictitious accountant's letters
to Vidal, in support of fraudulent loan applications submitted to SunTrust Mortgage. Hayduk, Vidal, and
Perez are awaiting sentencing by Chief Judge Moore.
Mr. Ferrer commends the investigative efforts of the FBI and FDIC, Office of Inspector General. The case is
being prosecuted by Assistant U.S. Attorneys Dwayne E. Williams and Jerrob Duffy.
A copy of this press release may be found on the website of the United States Attorney's Office for the
Southern District of Florida at http://www.usdoj.gov/usao/fls. Related court documents and information
may be found on the website of the District Court for the Southern District of Florida at
http://www.flsd.uscourts.gov or on http://pacer.flsd.uscourts.gov.
####